<html>
<title> - HEARING ON FOREST MANAGEMENT TO MITIGATE WILDFIRES: LEGISLATIVE SOLUTIONS</title>
<body><pre>[Senate Hearing 115-112]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-112

    HEARING ON FOREST MANAGEMENT TO MITIGATE WILDFIRES: LEGISLATIVE 
                               SOLUTIONS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 27, 2017

                               __________

  Printed for the use of the Committee on Environment and Public Works






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]











         Available via the World Wide Web: http://www.fdsys.gov
         
         
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-319 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              KAMALA HARRIS, California

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 27, 2017
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    11
Hatch, Hon. Orrin, U.S. Senator from the State of Utah...........   118
Thune, Hon. John, U.S. Senator from the State of South Dakota....   119
Tester, Hon. Jon, U.S. Senator from the State of Montana.........   120
Daines, Hon. Steve, U.S. Senator from the State of Montana.......   121

                               WITNESSES

Crowder, Jessica, Policy Advisor, Office of Governor Matthew H. 
  Mead...........................................................   124
    Prepared statement...........................................   126
    Responses to additional questions from:
        Senator Barrasso.........................................   138
        Senator Carper...........................................   139
Fite, Lawson, General Counsel, American Forest Resources Council.   141
    Prepared statement...........................................   143
    Responses to additional questions from:
        Senator Barrasso.........................................   152
        Senator Carper...........................................   154
O'Mara, Collin, President and Chief Executive Officer, National 
  Wildlife Federation............................................   156
    Prepared statement...........................................   159
    Responses to additional questions from:
        Senator Barrasso.........................................   165
        Senator Carper...........................................   166
        Senator Whitehouse.......................................   171

 
    HEARING ON FOREST MANAGEMENT TO MITIGATE WILDFIRES: LEGISLATIVE 
                               SOLUTIONS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 27, 2017

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(chairman of the committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Boozman, 
Fischer, Rounds, Ernst, Merkley, Gillibrand, Booker, Markey, 
and Harris.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    So far, in 2017, as all of our guests of the panel know, in 
2017 fires have burned more than 8 million acres in the United 
States. We need to find solutions to address this threat to our 
communities and to wildlife.
    Today the Committee is going to hear testimony on three 
bills related to catastrophic wildfires burning across the 
West. Senator Daines has introduced Senate 605, the Litigation 
Relief for Forest Management Projects Act, which would address 
conflicting circuit court decisions and prevent costly delays 
in forest management as a result of duplicative consultation 
requirements.
    The Committee will hear testimony on Senator Hatch's bill, 
S. 1417, the Sage Grouse and Mule Deer Habitat Conservation and 
Restoration Act of 2017. S. 1417 would allow for removal of 
pinyon and juniper trees, which are invasive species that lead 
to wildfires and compromise habitat for mule deer and sage 
grouse across the West.
    We also have Senator Thune's bill, S. 1731, the Forest 
Management Improvement Act of 2017, which provides the Forest 
Service with a series of tools to address the ever-growing 
wildfire threats of forests filled with dead and dying trees.
    Each of these bills addresses a different, but important 
part of forest health and fire prevention.
    Decades of fire suppression and a rapid decline in active 
management have led to overly dense forests susceptible to 
disease and to pest outbreaks. Pests or disease leave thick 
stands of dead trees, which are poor habitat for iconic species 
such as elk, lynx, deer, and other wildlife that depend on 
vibrant forest ecosystems. The dead trees affect watersheds, as 
well, as there are no longer leaves or needles to hold snow to 
build winter snowpack.
    In addition, these dead forests are much more prone to 
catastrophic fires. These hot, fast-moving fires are 
unpredictable and cause significant damage to the ecosystem and 
surrounding communities. There are the obvious impacts from 
these fires, and we have a poster board to show Bambi running 
away from a wildfire. Wildlife that flee too slowly are burned, 
homes and habitat are lost, and smoke billows into the air.
    Smoke and ash travel for miles, spreading fear among those 
who already face respiratory challenges, as this poster shows. 
Looks like a woman and her child walking with masks over their 
faces because of the impact of the smoke from the fire. It is 
not uncommon to see people, including children and the elderly, 
wearing face masks. Coughing, sneezing, and watery eyes leads 
people to ask, is all that wildfire smoke damaging my health?
    On September 11th, a National Public Radio article 
highlighted these concerns, and I will submit a copy of the 
article for the record.
    [The referenced information follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    
    
    
    Senator Barrasso. In 2017 alone, schools in Oregon, 
Montana, and even Florida have canceled classes to keep 
children inside and away from the smoke.
    While smoke and falling ash disburse relatively quickly, 
other impacts remain for years to come. After a catastrophic 
fire is extinguished by brave wildland firefighters or by early 
snows, forest ecosystems lose their topsoil. Hot fires 
sterilize the soil and, without a strong root system to hold 
that soil back, these landscapes experience massive erosion. 
Dirt, sand, and other silt quickly accumulates in creeks and 
streams, devastating aquatic life and clogging municipal water 
systems. High sediment levels raise water temperature and can 
be also a cause of widespread fish kills.
    What is most egregious is that our Federal land managers 
could mitigate a significant portion of these risks. Fire is a 
historically important part of an ecosystem, but these large, 
unnatural, catastrophic wildfires are not. In order to address 
this threat, we need to actively manage forests with excess 
dead wood. Large stands of dead trees need to be removed in a 
timely fashion so we are not facing another 8 million acres of 
burned lands.
    We must act quickly to address the risk to human health, 
infrastructure, and valuable ecosystems. There are millions of 
acres of Federal land, forestland in dire need of thinning, 
restoration, and other attention. Last year, the Forest Service 
estimated that up to 100 million acres are at some risk of 
wildfire.
    Today we will hear about bills that address bureaucratic 
processes that prevent or delay proactive fire prevention and 
ecosystem management; bills that can save lives, property, and 
protect our forests' diverse wildlife.
    So, before we move to the sponsors and cosponsors of the 
bills for their remarks, I would turn to Ranking Member Carper 
for his remarks.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman. Thank you for pulling 
this all together.
    Welcome to our colleagues.
    I am delighted to be holding this hearing; it is an 
important one for all of us, whether we are from the great 
northwest or a little State on the east coast. Our Country has 
experienced, as we know, a number of significant natural 
disasters this year, increasingly destructive hurricanes, 
catastrophic wildfires, and these disasters disrupt and 
endanger people's lives, their homes, their health, their 
safety, and their livelihoods. Wildfires and hurricanes, for 
that matter, also destroy habitat and imperil our wildlife.
    I agree with the Government Accountability Office that 
climate change contributes to making these disasters more 
severe. They are becoming more common, more destructive, and 
exponentially more expensive with each passing year.
    As we know, at the start of every Congress GAO publishes 
something called their High-Risk List. They do so to call 
attention to areas within the Federal Government that pose a 
high risk due to their vulnerabilities, and also lead to 
spending a lot of money. Once again, in 2017, GAO noted that 
climate change presents a significant financial risk to the 
Federal Government, and we are seeing that across this Country, 
from the fires out West to the devastation in Puerto Rico and 
the U.S. Virgin Islands in the last week.
    As our Federal budget deficit for this year climbs passed 
$700 billion and headed higher, among other things, we need to 
ensure we help reduce the risk of future disasters and plan for 
response costs.
    When it comes to planning for severe weather events, an 
ounce of prevention is worth a pound of cure.
    Today I look forward to hearing, we look forward to hearing 
from our colleagues, and then our witnesses, how best to manage 
this serious threat posed by wildfires. We need to make sure we 
that we are taking appropriate steps to prevent wildfires from 
occurring. We must also ensure that our first responders, our 
Federal agencies, and local governments have the tools that 
they need to combat faster, longer, and more frequent 
wildfires.
    I agree with my colleagues that environmental laws should 
be nimble, not unduly impede our preparation for and our 
response to these unprecedented wildfires. However, I do not 
believe that environmental laws are to blame for their 
occurrence. Many factors contribute to the severity of 
wildfires. They include homes and other developments located 
near forestlands, along with climate change, as I have 
mentioned, and other factors as well.
    As I have said before, we need to be very careful about 
making sweeping changes to the National Environmental Policy 
Act and the Endangered Species Act, particularly when existing 
authorities, more targeted changes, and adequate funding can 
help to address our challenges.
    We must also adopt budgets that provide for proactive 
forest management and firefighting activities. Budget 
constraints may actually be preventing the Forest Service from 
using existing authorities to more efficiently respond to fires 
and mitigate their risks, and the problem is getting worse.
    In 1995, only 16 percent of the U.S. Forest Service budget 
was dedicated to fire suppression. Sixteen percent in 1995. 
Since 2015, the Forest Service has been spending more than half 
of its annual budget, over half of its annual budget fighting 
fires. According to Secretary Perdue, firefighting activities 
will likely consume two-thirds of the Forest Service budget by 
2021.
    I hope today's hearing will lead to even more thoughtful 
discussions and to a growing bipartisan consensus in the 
Congress in the days ahead on how to build greater resilience 
that will enable us to cost-effectively address the increase in 
enormously expensive natural disasters that we have been 
witnessing in our Country in recent years.
    In closing, I ask unanimous consent to enter, Mr. Chairman, 
several letters and documents from concerned stakeholders into 
the record.
    And, again, we thank all of our colleagues for joining us 
today.
    Senator Barrasso. Without objection, they will be ordered.
    Thank you very much, Senator Carper.
    [The referenced information follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
    
    Senator Barrasso. We are fortunate to have joining us today 
Senator Hatch, Senator Thune, Senator Tester, and Senator 
Daines. I am looking forward to your comments and your 
statements. I know you have very busy schedules, with 
additional commitments, so once you have had a chance to share 
information about your bills, those of you that have sponsored 
or cosponsored, welcome you to get to the remainder of your 
schedule.
    So, Senator Hatch, we would like to start with you.

            OPENING STATEMENT OF HON. ORRIN HATCH, 
              U.S. SENATOR FROM THE STATE OF UTAH

    Senator Hatch. Thank you very much, Mr. Chairman. Today I 
would like to speak in support of the bipartisan Sage Grouse 
and Mule Deer Habitat Conservation and Restoration Act.
    This particular legislation would streamline important 
vegetation management projects to conserve and restore the 
habitat of sage grouse and mule deer in a way that carries an 
added benefit of reducing fuel modes for catastrophic 
wildfires.
    I was eager to join Senator Heinrich in introducing this 
badly needed legislation because, across the West, especially 
in our home States of Utah and New Mexico, and elsewhere, 
wildlife populations are suffering from the dangerous 
encroachment of invasive pinyon and juniper trees. And, what is 
worse, these burgeoning forests increase the risk of wildfire, 
threatening homes, property, and human lives. Because sage 
grouse and mule deer share similar habitats, Senator Heinrich 
and I worked together to create a solution that would help 
restore sagebrush habitat and support these iconic western 
species.
    As the Fish and Wildlife Service would agree, invasion of 
pinyon and juniper trees destroy sage grouse habitat and 
provides artificial nesting sites for predators of sage grouse. 
In the face of this challenge, responsible tree removal helps 
curtail this damaging expansion and carries widespread 
ecological benefits. In fact, wildlife managers in the West 
have long worked to convert pinyon and juniper stands to 
sagebrush because doing so increases forage and soil water 
availability, which improves wildlife carrying capacity, 
reduces wildlife risks, and benefits big game populations, 
particularly mule deer.
    Although tree expansion is a natural process normally 
controlled by wildfire, fire suppression efforts over the years 
have allowed expansion to go unchecked. As a result, trees have 
spread to areas they have not historically occupied because 
wildfire, which threatens wildlife, private property, and human 
lives, is no longer a viable option for combating forest 
expansion. Effective alternatives are needed to limit the 
damage caused by invasive trees.
    Fortunately, Federal restoration projects have proven 
successful in replicating the benefits of wildfire, while 
avoiding its associated damages to natural habitat, adjacent 
property, or human neighbors. Our legislation helps build on 
these successes by removing lengthy, cumbersome environmental 
review processes for vegetation management projects that 
benefit sagebrush ecosystems.
    Though targeted tree removal would seem to be a commonsense 
priority, Senator Heinrich and I found that responsible 
management efforts by Federal agencies are frequently delayed 
by needless bureaucratic impediments. So, to help safeguard and 
reinvigorate sage grouse and mule deer habitats, we agreed to 
accelerate the approval of beneficial vegetation management 
projects by giving the Bureau of Land Management expanded tools 
to aid its sagebrush restoration efforts.
    As I mentioned earlier, this is a bipartisan effort, and a 
diverse group of stakeholders have come out in support of the 
reasonable measures contemplated in this bill. I am confident 
that passage of this legislation will bolster ecological health 
and promote sustainable populations of wildlife species that 
depend on sagebrush habitat.
    Our bill will also reduce the risk of costly catastrophic 
wildfire. In accomplishing this goal, I believe we can benefit 
communities throughout the West that rely on sportsmen and 
natural resource development as economic drivers, while still 
sending a clear message that we are serious about sound 
environmental stewardship.
    Mr. Chairman and other members of the Committee, it is 
critical that we get this legislation signed into law, and I 
appreciate the opportunity today to speak to the merits of this 
bill. I want to thank the Chairman and the members of the 
Committee, with whom I am eager to work in moving this bill 
forward, and I just appreciate this opportunity to make these 
points.
    Senator Barrasso. Thank you very much, Senator Hatch.
    Senator Thune, welcome to the Committee.

             OPENING STATEMENT OF HON. JOHN THUNE, 
          U.S. SENATOR FROM THE STATE OF SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman. Chairman Barrasso, 
Ranking Member Carper, and members of the Committee, I 
appreciate the invitation and opportunity to speak today on 
behalf of a bill that I introduced in August, which is Senate 
Bill 1731, the Forest Management Improvement Act of 2017.
    Mr. Chairman, we have all heard the saying that Nero 
fiddled while Rome burned. Well, this happened in A.D. 64, 
when, for 6 days and seven nights, the citizens of ancient Rome 
watched helplessly as their city burned.
    Fast forward to 2017 and we have a familiar scene. Since 
January 1 of this year, through today, Americans have watched 
49,000 fires burn more than 8.4 million acres of forestland. 
According to the U.S. Forest Service, since 2000, wildfires 
have burned an average of 6.9 million acres every single year.
    But, Chairman, after nearly a quarter century of hands-off 
management, fire suppression costs have grown, as Ranking 
Member Carper pointed out, from 16 percent of the Forest 
Service annual appropriated budget in 1995, to 52 percent of 
the Forest Service annual budget in 2015. We must take 
immediate steps to improve the health of our Nation's 
forestland by being much more aggressive and proactive when it 
comes to forest management. Because forest fires are occurring 
on a large scale across the western United States, proactive 
management to protect our forests must be initiated on a large 
scale.
    Mr. Chairman, I believe my bill being discussed here today 
offers commonsense solutions that would help solve our problems 
of declining forest health. In short, my bill would one, 
increase current categorical exclusions from 3,000 to 10,000 
acres; two, allow the Forest Service to take steps to rapidly 
salvage dead and dying trees after wildfires, ice storms, or 
wind events; three, expedite the environmental review process; 
four, create a single Good Neighbor Authority policy; five, 
clarify congressional intent on stewardship contracting; and, 
finally, six, provide much greater certainty for project level 
decisions through litigation relief.
    Proper management of forests makes them resilient and 
better able to withstand fires, pests, and diseases. We must 
allow expanded use of 21st century techniques by land 
management professionals, and not cave to the direct mail 
specialists and litigators whose misguided efforts have 
resulted in disasters in our forestland.
    We have the technology and know-how to restore America's 
cherished landscapes back to healthy natural conditions, and we 
should waste no more time to use this technology to preserve 
and protect our Nation's forest landscape.
    Mr. Chairman, I urge my colleagues to support this bill. I 
thank you, Mr. Chairman and Ranking Member, for bringing Senate 
Bill 1731 before this Committee and inviting me to speak on 
behalf of this important legislation. Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Thune.
    Senator Tester, welcome to the Committee.

             OPENING STATEMENT OF HON. JON TESTER, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Tester. Well, thank you, Chairman Barrasso and 
Ranking Member Carper, and thank you to all the members on the 
Committee. It is a pleasure to be here today to talk about this 
important legislation. And I also want to thank my colleague, 
Senator Daines, for sponsoring this important bill.
    In Montana and across this Country, we are experiencing a 
historic wildfire season. A changing climate, historic drought, 
longer summer, a crippled Forest Service resulting in a lack of 
forest management turned Montana into a tinderbox, and all it 
took was Mother Nature to light it up, and she did.
    Over 1 million acres of Montana is burned, and we are not 
out of the woods yet. A dangerous and costly wildfire season 
forced the Forest Service to burn through much of their budget 
and already start the fire borrowing process.
    In its 2015 Cottonwood decision, the Ninth Circuit Court of 
Appeals ruled that the Forest Service can be required to 
continuously update its forest plans to protect an endangered 
species, even if it has already consulted with the Fish and 
Wildlife Service, even if it has updated its forest plan, and 
even continues to consult with the agency for projects under 
this plan.
    This means that the Forest Service actively, under that 
plan, from timber harvest to watershed restoration, could be 
put under an injunction for years while the plan is updated. 
And there is no guarantee that the plan won't need to be 
updated again and again and again as new species listed or 
habitat areas are changed. All the while the forest goes 
unmanaged.
    The Cottonwood decision has already led to injunctions on 
five vegetation management projects in Montana alone. One of 
those, the Stonewall Vegetation Project, included fire 
mitigation work, and part of that burned this summer as well. 
Across Regions I, II, and IV, at least 80 projects are at risk.
    This bill is targeted as a bipartisan fix to this court 
case. We need to support the recovery of endangered species, 
there is no doubt about that, but blocking forest management 
across the board is not going to help our forests. This 
legislation that you are going to consider today, the 
Litigation Relief for Forest Management Act, will help address 
the real and pressing issues for our Forest Service.
    It will help put saws in people's hands, cut trees, 
mitigate wildfire hazards, restore habitat, strengthen timber 
economy, and maybe most importantly, maintain our forests. It 
will ensure the requirements to update forest plans make sense 
and that the Forest Service will be able to get started on 
their projects, instead of being stuck in a constant 
bureaucracy and endless litigation. It will cut through red 
tape and allow for the Forest Service to spend more time in the 
woods and less time in the courtrooms.
    This legislation will help good forest projects move 
forward. These projects are carefully designed. They take input 
from Fish and Wildlife Service, they will take input from the 
public, and, ideally, they will hold up in court.
    But for the Forest Service, to get the job done and win in 
court, they need the resources to do the analysis. If the 
Forest Service spends over half its money in fighting fires, 
that is less money for responsible forest management; it is 
less money to create recreational access, to create watershed 
protections, and the due diligence that they need in order to 
succeed in court and produce a healthy forest.
    The Forest Service is already borrowing $300 million to 
cover firefighting costs this year. This depletion means it 
won't be able to responsibly manage our forests, making it 
harder to mitigate the impacts of wildfires. Sadly, the Senate 
seems incapable of addressing climate change in a responsible 
and tangible way, and I think that is a big problem.
    We may not be able to decide on how to tackle climate 
change today, but we should be able to give the Forest Service 
the tools they need to responsibly manage our forests. The 
Litigation Relief for Forest Management Act is a good start, 
but we will need to address the funding issues within the 
Forest Service as well.
    Thank you, Mr. Chairman.
    Senator Barrasso. Well, thank you very much, Senator 
Tester.
    Senator Daines, welcome to the Committee.

            OPENING STATEMENT OF HON. STEVE DAINES, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Daines. Thank you, Chairman Barrasso, Ranking 
Member Carper for holding today's hearing on Senate Bill 605, 
my legislation with Senator Tester to increase active forest 
management by fixing a damaging court decision that just 
creates red tape and blocks much-needed projects on the ground 
with no benefit to the species.
    We burned over 1 million acres in Montana this fire season. 
In fact, the Ranking Member, it is the size of the State of 
Delaware.
    Senator Carper. Huge.
    Senator Daines. It is big.
    [Laughter.]
    Senator Daines. To put it in perspective, we lost two 
firefighters, too, and a sobering thought, lost their lives in 
Montana fighting those fires.
    Let me say up front that this legislation codifies the 
legal position taken by the Obama administration. Leaders of 
the Department of Agriculture and Department of Interior under 
the current Administration, likewise, have expressed support 
for the core elements of my legislation.
    There is a reason there are two Montanans in front of you 
today on the hearing. Montana had two of the three most 
expensive fires in the Nation. I just saw the brief from 
Secretary Perdue yesterday. Stack ranked the most expensive 
fires, the top 20. Montana, No. 1, was the Lolo Peak fire south 
of Missoula, and No. 3 was the Rice Ridge fire near City Lake.
    Furthermore, Representative Mike Simpson and Representative 
Collin Peterson have introduced bipartisan companion 
legislation in the House, so we have this from a bipartisan, 
bicameral viewpoint, as well as administrative support. It is 
also supported by dozens of organizations, several sportsmen 
and conservation groups, as well. Simply put, it has strong 
bipartisan roots and strong bipartisan support.
    Senator Bill 605 responds to the Ninth Circuit ruling in 
the U.S. Forest Service versus Cottonwood Environmental Law 
Center that the Forest Service is required to do an extra layer 
of plan level consultation with the U.S. Fish and Wildlife 
Services following the designation of critical habitat for the 
lynx species. To be clear, the Forest Service and Fish and 
Wildlife Service were already conducting robust scientific 
analysis with regard to lynx habitat at the project level, so 
these agencies were and are fully committed to the conservation 
of the species.
    The Cottonwood ruling stands in contrast with a Tenth 
Circuit ruling on a related case in 2007. Unfortunately, in 
2016, October, the Supreme Court declined the Obama 
administration's petition to resolve the conflicting circuit 
court opinions, which effectively upholds the Ninth Circuit 
ruling.
    As highlighted by President Obama's Department of Justice, 
the Cottonwood ruling has ``the potential to cripple the Forest 
Service and BLM's land management functions.''
    DOJ also highlighted that this decision substantially 
increases unnecessary paperwork requirements without any 
conservation benefit. And far from being just a case about the 
lynx, the Department of Justice noted that there are more than 
850 listed species in the geographical area of the Ninth 
Circuit, and emphasized the sheer volume of agency resources 
that would be required to adhere to the court's decision.
    We are seeing this firsthand in Montana, as the Forest 
Service is now prioritizing re-consultation with the U.S. Fish 
and Wildlife Service on the lynx first, above other work like 
grizzly bear consultation and permitting projects.
    Today there are five forest management projects in Montana 
comprising over 150 million board feet of timber that have been 
blocked through injunctions due to the Cottonwood decision. 
These projects were designed to achieve critical objectives 
such as reducing the risk of wildfires, improving habitat, and 
protecting water quality. Several of these projects were 
developed through locally driven, collaborative process that 
involved diverse stakeholders working together to improve 
forest health, and yet each one was stopped due to repeat 
fringe litigants capitalizing on the Ninth Circuit's disastrous 
Cottonwood ruling.
    And perhaps the most alarming example, and Senator Tester 
just alluded to it, was the injunction of the Stonewall 
Vegetation Project near Lincoln, Montana. This project was 
enjoined this past spring, just days before the work was 
scheduled to begin. And about 1 month later, guess what 
happened? Fires broke out on some of the very acres that would 
have been treated under this project.
    While I can't say the project would have prevented the 
fire, the mere fact that wildfires occurred in areas that could 
not be treated due to the Cottonwood shows that we need to 
urgently pass my bipartisan legislation to statutorily reverse 
this decision. Senator Bill 605 simply clarifies that Federal 
agencies do not need to do the extra layer of unnecessary 
consultation that is required by the Cottonwood decision. This 
will statutorily fix right now this conflict we have with the 
circuit courts. Removing this burden will allow Federal 
agencies to have more time to complete preventive work on the 
ground, while also creating good paying wood products jobs.
    I strongly believe this legislation, together with other 
management and wildfire funding reforms, should be passed into 
law this year. We say out in Montana either we are going to 
manage the forests or the forests are going to manage us.
    I look forward to working with this Committee toward that 
end. Thank you.
    Senator Barrasso. Thank you very much, Senator Daines. We 
appreciate you bringing forth this bipartisan piece of 
legislation and are very grateful for your leadership. Thank 
you.
    We will now hear from our witnesses.
    I am pleased to first introduce Jessica Crowder, who serves 
as a Policy Advisor for Wyoming's Governor Matt Mead. From her 
work for the Governor's Office and as a former policy analyst 
for the Wyoming Department of Agriculture, Jessica knows the 
value of strong coordination among States, Federal, and local 
agencies.
    Jessica holds a bachelor's and master's degrees in range 
management, during which she studied post-fire activities, 
including grazing following prescribed fire during summer 
months.
    Jessica is a key member of the Governor's Task Force on 
Forests, which concluded January 2015, and she continues to 
work closely with me and my staff to develop forestry solutions 
for Wyoming. Jessica wears many hats and offers a unique 
perspective on the way fire affects forest health.
    Jessica, I appreciate you making the trip to be with us 
today. I look forward soon to hearing your suggestions for 
improving forest health for the next generation.
    In addition to Ms. Crowder, we have Mr. Lawson Fite, who is 
a General Counsel for the American Forest Resources Council. We 
appreciate you being here today.
    And Mr. Collin O'Mara, good to see you again, President and 
CEO of the National Wildlife Federation.
    I would like to remind the witnesses that your full 
testimony will be made part of the official hearing record 
today. Please try to keep your comments to 5 minutes so that we 
may have time for questions.
    Ms. Crowder, please begin.

    STATEMENT OF JESSICA CROWDER, POLICY ADVISOR, OFFICE OF 
                    GOVERNOR MATTHEW H. MEAD

    Ms. Crowder. Thank you and good morning, Mr. Chairman and 
members of the Committee. Thank you for the opportunity to 
testify on enhancing forest management to effectively mitigate 
wildfires.
    Wyoming's forested lands make up more than 11 million acres 
of our State, and over 60 percent is administered by the Forest 
Service and the Bureau of Land Management. Federal impediments 
to active management have negatively affected Wyoming's 
economy, natural resources, private property, and human health.
    The current situation on forested lands in Wyoming and 
across the Country demands immediate action. Governor Mead 
believes we can do better in managing our forests. He created a 
Task Force on Forests in 2013 to analyze and consider response 
strategies for forest management. Through this and subsequent 
work, we believe there are opportunities to reach the goal of 
sustainable forests.
    Wyoming's forests offer an illustration of the need for 
active management. Logging, mechanical treatments, managed 
livestock grazing, prescribed fire, managed wildfire, all of 
these serve to improve forest health and the multiple benefits 
derived from our forests. Despite this knowledge, we have not 
been able to fully implement active management at a landscape 
scale, and the results are concerning.
    Over the past 20 years, aerial detection surveys have 
mapped over 4.6 million cumulative acres of trees killed by 
insect and disease in Wyoming alone. Catastrophic wildfires and 
the costs to fight wildfires have increased across the West. 
Unmanaged forests impact the ecosystems and essential benefits 
they provide. Dead trees pose a hazard for humans. Downed trees 
make it difficult for people and animals to use an area. Forage 
for livestock and effective wildlife habitats are reduced. It 
is difficult to access areas for treatment for livestock 
management or for recreational pursuits such as mountain 
biking, hunting, and hiking.
    Forests impacted by insects and disease also make 
firefighting difficult. 2017 has been average year in terms of 
wildfires for Wyoming. Unfortunately, this is not true for 
several western States. For Wyoming, the fire season of 2012 
was an intense and record setting year: over 700,000 acres 
burned and over 75 residences were destroyed. The suppression 
costs totaled approximately $110 million.
    Increased occurrences of catastrophic wildfires can harm 
municipal watersheds. High intensity fires increase erosion and 
sedimentation in reservoirs that provide water for people. 
Wyoming's air quality has also been affected by smoke. The 
first 2 weeks of September were particularly smoky. The Wyoming 
Department of Environmental Quality has recorded nearly 40 
values over air quality standards for particulate matter and 
ozone since July.
    Because of these impacts of unmanaged forests and wildfires 
to Wyoming, I offer these potential solutions.
    First, I would like to address insect and disease areas. 
Congress gave the Forest Service the ability to use categorical 
exclusions under the Agricultural Act of 2014, or the Farm 
Bill, in designated insect and disease areas. Federal agencies 
are, in some instances, hesitant to utilize existing 
authorities and capitalize on opportunities to complete 
analyses in an expedited manner. In Wyoming, over 2 million 
acres have been designated. To date, this tool has not been 
used in our State.
    Congress should urge the use of categorical exclusions 
already allowed in insect and disease areas. Additionally, 
increasing the acreage allowed to be considered under a 
categorical exclusion would be beneficial. It will take 
management on a larger scale than has occurred in recent years 
to effectively decrease wildfire risks.
    Second, Wyoming has worked to increase partnerships with 
both the Forest Service and the BLM. The permanent 
authorization and expansion of Good Neighbor Authority and the 
Farm Bill is important for getting more work done on the 
ground. This work contributes to proactive management and 
decreased potential for large intense fires.
    However, the Farm Bill does not allow permanent roads to be 
reconstructed under Good Neighbor Authority, and these roads 
are often necessary. We recommend removing this provision.
    And, finally, I would like to discuss the National 
Environmental Policy Act. NEPA was enacted to fulfill a 
specific purpose. It is a procedural statute designed to 
disclose impacts and assist Federal agencies in making 
decisions. Yet, NEPA has evolved into a cumbersome and costly 
process. Analyses often contain unnecessary information in an 
effort to guard against or answer possible litigation.
    A change in the NEPA process through legislative action and 
agency action is necessary. My written testimony contains 
simple suggestions for improving NEPA. Slow and unwieldy 
analyses do not provide for progress in reacting to ever-
changing conditions on the ground. A shift from how the law is 
currently being executed will require leadership, and I submit 
that this Committee is exceedingly qualified to undertake and 
accomplish the goal of restoring and streamlining NEPA.
    In closing, Governor Mead appreciates this Committee's 
continued leadership and interest in finding solutions to the 
crisis we are seeing on our western landscapes.
    Thank you again for this opportunity to share Wyoming's 
perspective, and I welcome any questions you may have.
    [The prepared statement of Ms. Crowder follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
  
    
    Senator Barrasso. Thank you, Ms. Crowder.
    Mr. Fite.

  STATEMENT OF LAWSON FITE, GENERAL COUNSEL, AMERICAN FOREST 
                       RESOURCES COUNCIL

    Mr. Fite. Thank you. Chairman Barrasso and Ranking Member 
Carper, members of the Committee, thank you for the opportunity 
to address you today.
    This hearing is a timely and constructive step toward 
commonsense reforms in the way that we manage our Federal 
forests.
    The American Forest Resource Council, where I am the 
General Counsel, represents the forest products industry in 
Washington, Oregon, Idaho, Montana, and California. Our 
members' businesses, and the rural communities that they 
support, depend on a steady and predictable supply of timber. 
The forest products industry is one of the only sources of 
family wage jobs in these areas, and these jobs are the 
linchpin of many rural economies. The milling and logging 
infrastructure that our industry provides also makes forest 
restoration and thinning efforts possible.
    We in the forest products industry take pride in our 
stewardship of the lands where we work. We are invested in 
sustaining this renewable resource for future generations, 
protecting our communities, and ensuring the health of our 
forests so it will offer its benefits to the many users who 
work, fish, hunt, and recreate there.
    Right now, swaths of our Federal forests are overstocked, 
unhealthy, and at high risk of catastrophic wildfire. As you 
have heard during this hearing, this year's wildfire season in 
the West was one of the worst on record: over 8 million acres 
burned. The effects of these wildfires are not mere statistics; 
they are human suffering, burned homes, destroyed and charred 
wildlife habitat, and burned dead forests. And when forests 
burn, valuable timber resources are lost, leading to job loss 
and closure of that needed mill and logging infrastructure.
    Many of these risks were illustrated in dramatic fashion by 
the Eagle Creek fire just east of Portland. This fire took 
weeks to contain, it threatened key area water sources and 
gravely damaged treasured recreational sites such as Multnomah 
Falls and the Angel's Rest Trail. It covered the entire 
Portland area with a thick blanket of smoke.
    On September 17th, Portland had the worst air quality in 
the entire Country. Portland public schools canceled their 
first day of kindergarten this year. My daughter's preschool, 
they have gone outside every day for 30 years, and this year 
they had to stay inside for several days because of the poor 
air quality from this wildfire.
    Fortunately, there are solutions that can increase the 
resilience of our forests and our rural communities. The 
legislation before you today makes great strides toward 
streamlining forest management and reducing artificial 
constraints on land management agencies. In particular, S. 605, 
the Litigation Relief for Forest Management and Projects Act, 
which is a bipartisan bill and a bicameral bipartisan bill, 
would fix the Ninth Circuit's disastrous Cottonwood decision 
which is currently stalling a wide range of needed projects 
across 11 national forests. The bill would fix the decision by 
adopting the position taken by the Obama administration in 
front of the Ninth Circuit and in a petition to the Supreme 
Court.
    In Cottonwood, the Ninth Circuit ruled that when a new 
species is listed or new critical habitat designated, it is not 
enough to consult on that species for a project that is 
underway; it ruled that the Forest Service had to go back and 
redo its plan level consultation, even for a forest plan that 
may be 20 or more years old. In the Northwest, in particular, 
we are operating under a series of forest plans adopted in 
1994.
    This plan level consultation offers no conservation benefit 
over a project level consultation because plan level 
consultations often include a broad level of acceptable impact 
that can be spread over many projects. But when projects are 
analyzed project by project, a buffer is more likely to be 
incorporated to ensure those projects do not adversely affect 
listed species.
    Cottonwood has had a dramatic effect on the ability of 
Region I of the Forest Service to manage its lands, and that is 
only the beginning.
    In addition to S. 605, both S. 1417 and S. 1731 are worthy 
of your considerations. Currently, there are too many 
roadblocks and too much analysis paralysis going on in managing 
our Federal forests. Solutions to these problems can be 
achieved here in Washington, DC, and we urge the Committee to 
act.
    [The prepared statement of Mr. Fite follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    Senator Barrasso. Thank you very much, Mr. Fite, for your 
testimony.
    Mr. O'Mara, welcome back.

   STATEMENT OF COLLIN O'MARA, PRESIDENT AND CHIEF EXECUTIVE 
             OFFICER, NATIONAL WILDLIFE FEDERATION

    Mr. O'Mara. Chairman Barrasso, Ranking Member Carper, thank 
you for the invitation to be with you all. I am so thankfully 
to you personally, Mr. Chairman, for holding this hearing. This 
is a crisis that has not received nearly the attention 
nationally that it should; it has been drowned out in the news. 
And when you look at 8.5 million acres of wildfire this year, 
it is a big number. There are a million acres burning right 
now, which is the same size as, Senator Carper, my State of 
Delaware. Eight of the worst years in wildfire history have 
been the last 15. I mean, this is a trend that is absolutely 
terrifying. And there are solutions that have gone up to the 
two yard line in the last several congresses, but haven't quite 
gotten kind of across into the end zone.
    I want to be clear from the beginning that fire is natural. 
There are absolutely appropriate uses of fire, prescribed 
burns, very appropriate management technique. That is not what 
we are talking about today. These megafires that we are seeing 
are unlike anything we have really ever seen before, and they 
are more intense, they are more frequent.
    And the thing that is scary for me is that this year we 
actually had a decent snowpack in a lot of places. So the 
summer was just so hot after that basically all the additional 
precipitation that we had wasn't enough to increase the soil 
health, and you still had these massive fires.
    So you can't ignore the climate impacts between the 
snowpack and the warmer springs and the longer, drier summers, 
but there are things we can do about it, and right now the 
Forest Service is estimating that between 65 and 82 million 
acres of forests of the 193 million acres in our national 
forest system require restoration. We are only restoring a 
fraction of that. And for this conversation I think it is 
absolutely imperative that we both link the management 
improvements that are absolutely possible with this funding 
crisis, because we can have all the tools in the world for our 
guys on the ground, and they are doing the best they can with 
the tools they have, but if there are no resources to actually 
restore these forest stands, it will all be for naught.
    So there is a bipartisan path forward. There was a bill 
introduced just a few days ago by Senator Crapo, with Senator 
Wyden, Senator Merkley is on it as well; a huge bipartisan 
coalition of folks. But we would really encourage that this 
conversation be tied to that conversation because, at the end 
of the day, if we don't fix this fire funding crisis, a lot of 
these tools we are talking about will be insufficient.
    And we have talked about half of the Forest Service budget 
going toward fighting fires. We are going to be over 60 percent 
this year, and pushing up to two-thirds, 65 percent in the next 
few years.
    At the same time, we absolutely can improve forest 
management, and there are commonsense things we can do. We 
should be pushing innovation and collaborative tools. We should 
be focusing on restoration, on habitat restoration in 
particular. We need to make sure that forests and wildlife 
health and watershed health are adequately considered. And we 
can also improve the efficiency of the way that we look at 
these tools while maintaining public input and collaboration 
and environmental safeguards.
    And before this Committee today you have two bills that are 
great examples of reaching this balance. Senator Hatch and 
Senator Heinrich's sage brush bill is a good start. It is a 
bill that is targeted on a very specific problem, the juniper 
encroachment and looking at some of these other invasive 
species. It is targeted. It requires there be a habitat 
benefit. It addresses multiple threats, and it has incredible 
bipartisan support.
    The thing about this bill that is interesting is that you 
have support from almost all the conservation groups; you have 
support from industry groups like the American Petroleum 
Institute, the NRA. There are some conversations folks want to 
have about a couple small pieces. Some folks are concerned that 
invasives could come if you create a lot more roads and you 
could have some unintended consequences. But it is a great 
bipartisan bill that we strongly support.
    Senator Daines and Senator Tester talked about the 
Cottonwood bill. Again, huge bipartisan support; great broad 
coalition of folks. Again, there are a few small pieces that 
some groups want to talk about. I think there is a 
collaborative process we can have between now and markup to 
have that conversation, but, again, something that has big 
bipartisan support that makes a lot of sense.
    I also agree with Senator Thune that a lot of the concerns 
that he has raised are things that we need to address. I think 
his bill goes a little too far in some places, and we would 
like to work with the committee to ratchet it back a little 
bit. I think there are a couple places where we should have 
more collaboration and really empower local communities. I 
think some environmental safeguards that are kind of stepped by 
the wayside that, frankly, could be kept in place and still be 
more efficient.
    But, again, these are conversations that are timely and you 
could have a big bipartisan win at a time in this chamber where 
I think bipartisanship is fairly rare. You could have a 
massive, massive bipartisan victory in the next 2 months using 
these bills before this Committee as a basis and combining 
Senator Crapo's work on the other side.
    So, for me, at the end of the day, if we can put forward a 
package that solves the wildfire funding crisis, finally, that 
we have been talking about for 4 years, adopts landscape scale 
approaches, the Nature Conservancy has been doing good work on 
this; if we can actually reduce some of these redundant 
environmental reviews in a way that still protects the 
integrity, but actually increases efficiency; if we reward 
collaboration--there is nothing more frustrating for folks than 
to participate in a process for years, finding good commonsense 
bipartisan solutions, nonpartisan solutions and have them blown 
up by litigation later--and then expanding and improving these 
Good Neighbor and stewardship contracting provisions, we could 
have an absolute homerun and actually address a major problem 
on the landscape in a big way.
    So, on behalf of the National Wildlife Federation, our 6 
million members, our 51 State affiliates, State and territorial 
affiliates, thank you for working on this issue because I think 
this is one of those opportunities that could be government at 
its best over the next couple months if we put our heads and 
actually get something big done. So thank you to Mr. Chairman 
and Mr. Carper.
    [The prepared statement of Mr. O'Mara follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
   
    
    Senator Barrasso. Thank you very much for your testimony. I 
appreciate the testimony of all of you. We will proceed to some 
questioning at this time, and I will start with Ms. Crowder.
    According to the Federal land management agencies, on 
average, humans are, either intentionally or unintentionally, 
responsible for many of the wildfires in the United States. 
Casper Star Tribune reported that the cost of fighting the most 
expensive fire in United States history was in California, and 
that exceeded $200 million. The fire was caused by an illegal 
campfire. Last year, in Wyoming, a fire believed by the 
authorities to be man-caused destroyed a residential home and 
burned more than 19 square miles near Yellowstone National 
Park. It cost the U.S. Bureau of Land Management $1.4 million 
to fight that fire in Wyoming.
    Given the high cost to the American taxpayer, are there 
measures that we should be taking in order to make our forests 
more resistant to catastrophic manmade fires, or man-caused 
fires?
    Ms. Crowder. Mr. Chairman, yes, there are steps we should 
be taking and could take fairly easily. First, continued 
support for State fire assistance programs is important. In 
Wyoming, this includes fire prevention efforts such as 
education, educating the public on the impacts that their 
actions may have on citizens and even just their visit to these 
areas. Fire-wise programs to help homeowners and communities 
reduce the risk of wildfire damage are also important. Of 
course, hazardous fuel reduction projects are very important. 
This is an opportunity to mitigate wildfire hazards and lessen 
the threat of catastrophic fires or megafires. It is an 
opportunity to reduce lighter fuels, opportunities to reduce 
surface fuels, and also put in place some thinning projects.
    And these State fire assistance programs also provide the 
State opportunity to build or maintain capacity of State, 
Federal, and even volunteer fire departments, which become 
important in initial attacks when we have these fires. And, of 
course, I believe also that proactive management on a large 
scale is necessary as well.
    Senator Barrasso. Following up on that, to Mr. Fite, some 
parties are advocating a complete hands-off approach to 
national forests. In the past, you have expressed some 
skepticism over this concept of passive forest management. 
Specifically, June of this year you were quoted in Courthouse 
News as saying this approach ``leads to conditions that are 
quite unhealthy and even dangerous.''
    So, do you feel that there is a way to have healthy 
interactions with forest ecosystems and make forests more 
resilient to disease, to pests, and to catastrophic fire?
    Mr. Fite. Yes, Mr. Chairman, absolutely. There are things 
that we can do to make our forests more resilient and to 
restore a more natural role of fire in our ecosystem, and that 
involves active management, that involves untying our land and 
management agencies' hands so they can implement active 
management on a wider basis and without devoting so much of 
their resources to planning activities. For example, the Forest 
Service figures that we have seen 40 percent of their time and 
resources are spent on paperwork and planning, and that is not 
the way we should be out there managing our forests, reducing 
the fuels so that, when a fire comes through, the impacts are 
not catastrophic like we have seen this year.
    Senator Barrasso. Thank you.
    Ms. Crowder, you know, as a doctor, I am concerned about 
health impacts of these wildfires. Earlier this month, the 
Casper Star Tribune reported that the EPA considered the air 
quality over parts of several western States as very unhealthy 
because of the fires. It also quoted a physician with the 
American Lung Association who warned that fires spew 
particulates into the air which are linked to premature death 
and cancer, and can make asthma and chronic lung diseases 
worse.
    As a Wyoming official and a resident, can you describe what 
impacts these fires are having on the physical health of the 
people of the West?
    Ms. Crowder. Yes, Mr. Chairman. Human health is certainly a 
concern when it comes to wildfires. The air quality in Wyoming 
has been particularly bad this summer. Particulate matter, or 
those particulates that are suspended in the air, really do 
cause damage. The Wyoming Department of Health has put out 
several announcements and warnings to Wyoming citizens over the 
past several months, warning them to stay indoors and close 
their windows. You know, as a Wyoming resident, I have seen my 
own neighbors be forced inside because of air quality, and that 
is concerning in Wyoming.
    Additionally, we are concerned about visitors who visit our 
great State, and the impacts that poor air quality has on them 
and their trip, as well as our economy.
    We are also concerned with municipal watersheds and the 
impacts that fires may have on municipal watersheds, from 
sedimentation to notices from the Cheyenne Board of Public 
Utilities that our water may smell like smoke or taste like 
dirt because of a small wildfire in the area.
    So these are real health concerns in Wyoming.
    Senator Barrasso. Thank you.
    Senator Carper.
    Senator Carper. First of all, welcome one and all, 
colleagues. It is great to see you back here, and thank you for 
all the good work that you continue to do with your life; and I 
think the same is true for our other witnesses as well.
    You had a chance to hear Mr. O'Mara's comments in his 
testimony. Do you agree, Ms. Crowder, with anything he said?
    Ms. Crowder. Mr. Chairman, Senator Carper, he makes some 
very good points. Fire is a natural process and we do need to 
look at management at a large scale, and management needs to 
occur now at a large scale. There are several tools that we 
have in the toolbox, and we need to be using those immediately.
    I also believe that the testimony that Mr. O'Mara put 
forward that these megafires are of concern is absolutely true, 
and I do believe that collaboration is an important part of the 
process. We have seen some collaborative processes in Wyoming 
move forward. We have seen the Forest Service lead some of 
these collaboratives in Wyoming and put together landscape 
scale, and start to put landscape scale management activities, 
and that is important.
    However, I do think we also need to move quickly, and time 
is of the essence here. Thank you.
    Senator Carper. All right. Thank you.
    Mr. Fite, do you agree with anything that Mr. O'Mara had to 
say here in his testimony?
    Mr. Fite. Yes, Senator. For example, Mr. O'Mara discussed 
the Cottonwood bill, S. 605, sponsored by Senators Daines and 
Tester, and how that is a way to ensure that we get needed 
forest management projects done particularly in the northern 
Rockies and other regions where they are being held up for 
paperwork reasons that aren't producing conservation benefits.
    On the collaboration aspect, we in the industry support 
collaborative efforts where they produce good projects. We have 
a project where I, in fact, represented a collaborative in 
court that has been held up in litigation under the Cottonwood 
decision. So that is holding up collaborative projects, and 
that is why we need that fix.
    Senator Carper. All right, thank you.
    Collin, in your testimony, I think regarding the Litigation 
Relief Act, you mentioned that other members of the 
conservation community who are concerned that this bill, this 
would be the Tester-Daines bill, are concerned that this bill 
may be broader than necessary to achieve its goals and may 
result in some unintended consequences.
    Could you just elaborate on these unintended consequences 
and how we might address these concerns in the legislation?
    Mr. O'Mara. Sure. Thanks, Senator. And I have to give 
Senator Daines and Senator Tester a lot of credit. If you 
compare this bill to the House bill, it is already much more 
concise, and I think there is some concern that if you are only 
looking at the project level, when there is new information 
that comes on, that there could be information that should be 
integrated into kind of cumulative facts across the entire 
plan. I, frankly, think with a little bit more conversation we 
can actually resolve this quickly. We support the bill as it 
is. We are very grateful to Senator Daines for the work that he 
has done. We think that is actually a very strategic approach. 
These plans are supposed to be done every 10 years. It is more 
like 25 years in practice. So we just don't want to see 
projects held up that are going to help species today waiting 
for some long, collaborative process. But I think the biggest 
thing is just making sure there is no unintended consequences 
at scale.
    Senator Carper. Our other witness, do you have any brief 
reaction to what Collin just said? Briefly.
    Ms. Crowder. Mr. Chairman, Senator Carper, yes, I do 
believe that these projects do need to happen for habitat 
management and other reasons as well. As I spoke about earlier, 
the bill, the Daines-Tester bill does allow for project-
specific consultation, and that is important. Ultimately, we 
want to see species recovery, and we don't want to harm that in 
any way or harm the opportunity for actually getting management 
done on the ground. So I do agree that is an important step 
forward.
    Senator Carper. OK, thanks.
    Mr. Fite, any comment on what Collin just said?
    Mr. Fite. Yes, thank you, Senator. I think this bill is 
very carefully drawn. It does not undo existing law as to how 
you consult when you revise or prepare a new forest plan. So 
Senators Daines and Tester worked very carefully to make this a 
narrow fix that just eliminates work that is not going to 
actually benefit our species.
    Senator Carper. All right. I have some more questions and 
hope we will have an opportunity to ask those. Thanks for those 
responses.
    Senator Barrasso. You certainly will, Senator Carper.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. I have been 
sitting and listening with a lot of interest. Of course, I know 
this hearing is covering the forest fires, but we have prairie 
fires in Oklahoma. In fact, the last one we had was not really 
a record-setter, but it is something that we are facing. I can 
remember flying my own plane over it and going all the way up 
to southern Kansas and seeing the carcasses of animals up 
against fences where they were trying to get loose. So it is a 
very tragic thing.
    Ms. Crowder, in your testimony you say outreach at the 
early stages of development in the NEPA process would be key to 
reducing the time it takes to reach a decision. We have a lot 
of experience in that in this Committee during our highway 
bills and everything else, and we have learned from experience 
that we can do that. Last week I introduced a bill that 
pertains to the FERC permitting, providing for all Federal, 
State, and local regulatory agencies to come to the table early 
to coordinate their participation. It sounds to me like this is 
needed across government for all other types of projects.
    Can you further detail as to why it is important to get all 
the stakeholders at the table early, rather than later?
    Ms. Crowder. Yes, Mr. Chairman, Senator Inhofe. I have 
extensive experience working on these National Environmental 
Policy Act processes and actually putting the documents 
together, and, from my personal experience, those projects 
where the Federal agencies engage State and local governments, 
as well as others, early in the process tend to move a lot 
faster. So, for example, if a State agency has, and they often 
do, wildlife data that is important and useful for the Federal 
agency, then that State agency can bring that wildlife data 
forward, instead of waiting until the last minute to provide 
that information.
    Senator Inhofe. Which is normally the case.
    Ms. Crowder. Often the case, yes, sir. So I believe that 
bringing the entities to the table that have the data and 
expertise is of most importance.
    Senator Inhofe. And I think we successfully did this in 
some of our, in our FAST Act, the previous transportation bill 
prior to that, and we got some things done that otherwise we 
would not have gotten done. It was a joint effort, very 
bipartisan effort and very successful.
    Mr. Fite, in hearing your testimony today, there seems to 
have been more of a system for forest practices at a more local 
level. Besides the NEPA process, the Forest Service and other 
agencies are constantly blocked from responsible forest 
management through litigation from environmental groups that 
challenge every decision, even when these decisions are backed 
by science and beneficial to the overall ecosystem. There is a 
problem that needs to be solved, as these cases delay projects 
for years and create uncertainty, and then we will see 
situations like when the circuit courts split and the Supreme 
Court doesn't weigh in.
    What are your thoughts? You concentrated in your opening 
remarks more about S. 605, but on the other bill that Senator 
Thune was interested in, S. 1731, do you have any other 
thoughts on how you can solve these problems? Concentrate more 
on 1731.
    Mr. Fite. Yes, Senator. Thank you for the question. 
Litigation is a real problem, particularly when you have a 
project like you were describing, where stakeholders get 
involved, they are at the table helping develop the project, 
and then an outside group comes in at the very end and undoes 
the whole process, halts everything in litigation. And the 
arbitration provisions in 1731 I think are a good step at a 
pilot project for trying to figure out ways to streamline the 
litigation process, because right now the litigation process on 
top of the planning process can take years and years, and we 
need to fix that.
    Senator Inhofe. Well, that is good. Do you think 1736 would 
help in that respect?
    Mr. Fite. Yes, Senator.
    Senator Inhofe. The legislation we are discussing today are 
some ways to address forest management issues. Are there other 
things that Congress could do that are not addressed in this 
legislation? Anybody?
    Mr. O'Mara. Senator, thank you. I would really----
    Senator Inhofe. You are a very effective fast talker. My 
wife is always telling me to talk slower, and I am realizing 
now there is a great benefit to talking faster.
    Mr. O'Mara. Trying to squeeze 10 minutes into 5 minutes.
    [Laughter.]
    Mr. O'Mara. I joke that I grew up in Syracuse, New York; 
and if you don't talk fast, your mouth actually freezes shut.
    I would encourage everyone to take a look at Senator 
Crapo's legislation on the funding side, because if we fix the 
funding side and there are sufficient resources for managers 
and we make some of these management improvements so they have 
more tools, then we actually could have a victory that would 
transform forest management in this Country; and, frankly, it 
would be one of the most significant improvements in decades. 
So putting those two together I think could be an absolute 
homerun.
    Senator Inhofe. Good. Appreciate that.
    Any other comments on that, other things that could be 
done?
    Mr. Fite. There are a number of measures that have been 
proposed on the House side in a bill sponsored by Congressman 
Westerman that can really streamline planning processes, in 
particular an action-no action analysis. So that could really 
streamline----
    Senator Inhofe. Well, that is interesting. We will get that 
and look at those provisions.
    Thank you, Mr. Chairman. By the way, this is just another 
reminder that we have a problem between two Committees, this 
Committee and the Commerce Committee, that always seem to meet 
at the same time, so one of these days we will get that fixed.
    Senator Barrasso. Thank you, Senator Inhofe.
    Senator Merkley.
    Senator Merkley. Thank you, Mr. Chairman.
    And thank you all for your presentations.
    Oregon has been burning with 20 major forest fires, and 
some of those are complexes, meaning it is called one fire, but 
it is actually maybe a dozen. At one point there were over 80 
fires burning in my State just recently.
    Mr. Fite, I was up on the Eagle Creek Trail and the Pacific 
Crest Trail while the Indian Springs was burning on Eagle 
Creek, but we then had the fireworks that set off the whole 
Pacific Gorge aflame, and phenomenal just what that did.
    Oregon has had probably more success than any State in the 
Country on stewardship projects and collaboratives, and that 
effort came from, well, we have this war, this war going on 
over our forests, with some saying, hey, they should be managed 
primarily to get forests to an old growth State where they are 
fire resistant, and don't mess with Mother Nature, and others 
saying the solution to everything is to clear-cut. So that war 
was unproductive, ends up in all these court battles, so out of 
that came the stewardship efforts and the collaborative 
efforts.
    We have hundreds of thousands of acres in Oregon of second 
growth forests that are really good for fire and they are 
really good for disease, but they are not either great for 
either timber stands or for ecosystems. So there is a potential 
here for a win-win, and that is what the stewardship projects 
and the collaboratives are all about. And essentially, in the 
end, it is some version of thinning. You have these forests 
with the trees far too close together. The boughs are very low; 
the fire easily moves from the soil level to the canopy. Every 
tree is so close it lights the next one on fire; any wind blows 
through that. Then that carries over out of the fatal forests 
onto private land.
    So I was involved in a couple pilot projects that involved 
various types of thinning, and I have been up in the woods with 
both timber companies and the environmental groups to discuss 
how do we push this forward. So I just wanted to ask each of 
you, Ms. Crowder, do you feel like there is a real space for 
thinning projects to be able to kind of provide a steady supply 
of saw logs to the mills, but also to reduce the disease and 
fire challenges that we have in these forests?
    Ms. Crowder. Thank you, Mr. Chairman, Senator Merkley. 
Thinning is absolutely a useful tool for reducing fuels. It 
reduces fuels that lead to crown fires potentially; it has the 
potential to improve wildlife habitat; has positive impacts on 
tree growth, which leads to positive tree and forest health. It 
also leads to a potential decrease in insect and disease. So I 
do believe that thinning is a useful tool for reducing fuels 
and improving forest health. But thinning is only one of the 
tools in the toolbox.
    Senator Merkley. I am going to run out of time, so I won't 
ask you to go through the other tools.
    Mr. Fite, do you feel that is a useful tool?
    Mr. Fite. Yes, Senator. Thinning projects are a useful 
tool. I would say that even for thinning projects the process 
and litigation has become a significant roadblock. For example, 
projects in Oregon, a 187-acre project, for example, or a 
couple thousand acres, courts have required an environmental 
impact statement which is on the level of--that is more 
documentation than you need to build a new runway at Hillsboro 
Airport, quite literally, and that is why we need some fixes to 
management.
    Senator Merkley. Thank you, Mr. Fite. I will point out that 
virtually no stewardship projects ended up in court in Oregon. 
The whole point is to get people together beforehand and work 
out what is referred to as a prescription so you don't battle 
it out in court and you actually get work done in the woods.
    Mr. O'Mara.
    Mr. O'Mara. Thank you, Senator. I think you are right, I 
think some of the collaboratives in Oregon are some of the best 
examples, and I think some of the early stewardship 
contracting. I would like to see a lot more of it. I want to 
make sure that we actually enhance those programs and kind of 
build on the lessons since the Farm Bill. But, absolutely, 
thinning, prescribed burns, the things that actually work for 
some of the northwestern forests are absolutely essential to 
improve management.
    Senator Merkley. One of the challenges with thinning 
projects is they are often not commercially viable. It is just 
a lot, if you will, cheaper to take out trees in big chunks, 
big clear-cuts, and that is why we have programs to help fund 
that thinning. We had a lot in the stimulus bill. We have 
various other fuel hazardous loads and so forth programs. But 
we need to do a lot more of that.
    That is an interesting sound. Whose phone was that?
    Unidentified Speaker. Seems like it was coming from out 
there.
    [Laughter.]
    Senator Merkley. Hello.
    So that is one challenge, the funding to do those thinning 
projects.
    But one of the things that happens often when we have fires 
is there are folks who say, well, you know, the best thing to 
do is just get rid of the environmental side and let's go in 
and allow clear-cuts without any sort of action and, by the 
way, let's take out the fire-resistant trees at the same time, 
which just puts off alarm bells. Why would we take out old 
growth and the fire-resistant trees in the course of trying to 
make a forest more resilient?
    And since I am out of time, I won't ask you all to answer 
that, but I did notice that is exactly what is in Senate Bill 
1731, full permission to take out the old growth and the fire-
resistant trees; and that is just the sort of approach that 
destroys all the efforts to bring together the two communities 
to create forest health, because it is like, oh, well, here is 
an excuse to just go to old-style clear-cutting, rather than 
actual forest stewardship and making the better timber stands 
and better ecosystems.
    So I just wanted to express that concern and say that we 
really need to focus on not increasing the timber wars, but 
expanding on the foundation we have from the stewardship 
contracts and the collaboratives who are showing how we can 
stay out of the courts, make the forests more healthy, and 
produce a steady supply of saw logs for the mills. Thanks.
    Senator Barrasso. Thank you, Senator Merkley.
    Senator Rounds. Thank you, Mr. Chairman.
    Mr. Fite, in your testimony you State that wildfires this 
season have been one of the worst on record. Now, according to 
the U.S. Forest Service, fire seasons are now approximately two 
and a half months longer than in 1970. Just this month alone, 
KEVN News in Rapid City, South Dakota, has cited over 20 
wildfires in the Black Hills National Forest. We are facing, in 
my opinion, a Federal forest management crisis.
    If you could point to the most needed change to Federal 
management policy, what would that be, and why?
    Mr. Fite. Thank you, Senator. The most needed change is 
simply a focus on actively managing our landscape and making 
sure that the Forest Service and the BLM, those are the two 
agencies with the most Federal forests, that is their No. 1 
priority. Wildfires have to be fought when they come out, and 
it certainly costs a lot of money and we need to pay for it, 
but we need to be getting in there on the front end and making 
our landscapes more resilient so then, when a fire does come 
through, we don't get the destructive and catastrophic effects 
like we have seen this season and the past few seasons.
    Senator Rounds. Let me just ask a specific, because the 
suggestion is that the type of management that you would 
suggest is clear-cutting forests. Can you talk about that for a 
minute? Is that really what the desired management practice is?
    Mr. Fite. No, Senator, and I appreciate you asking the 
question. I think in one of the previous comments from the 
Committee there was a discussion of are we clear-cutting, are 
we removing fire-resistant trees. When we are going in and 
doing active management, there are different tools that 
agencies use in different circumstances, and in some cases you 
may want to create an opening or use former regeneration 
harvest. But a land management agency goes in and it uses its 
tools intelligently, knowing how the landscape is going to 
benefit. And we have seen research, particularly in California, 
that a little more intensive management can open up areas for 
prey for some of these iconic owl species; and that if you 
aren't going in and managing at all, that is, one, going to 
create this wildfire risk, but then you are not creating the 
prey base for these wildlife species that folks want to keep 
around.
    Senator Rounds. Really, what you are talking about is a 
diversity within the Forest Service itself. You want some areas 
with grass; you want some areas with shrubbery; you want some 
areas where heavy timber stands are allowed, moved in. It is 
almost like managing a garden in many ways, isn't it?
    Mr. Fite. I think that is a fair characterization, Senator. 
The Forest Service should be using all the tools at its 
disposal to make an active, healthy forest that produces all 
the multiple uses that they are designed for. And I think there 
are solutions out there with active management that can help 
give them those tools and help our communities as well.
    Senator Rounds. In your testimony you indicated that there 
seems to be a disparity in outcomes between federally and non-
federally managed forestlands. With all due respect to our 
Federal agencies and employees, I have seen this firsthand in 
the Black Hills in my home State, and it is often obvious from 
the condition of the trees themselves where federally managed 
forestlands start and where they end. A failure to properly 
manage forestland, or a lack of management entirely, is what 
leads to some of these very dangerous conditions; fuel 
buildups, undergrowth that hasn't been addressed in some cases; 
old growth timbers that have not been thinned in some cases. 
And when you do have a pine beetle infestation or anything 
else, you end up with so much heat that you basically sterilize 
the ground; the heat gets so high.
    Can you elaborate on what exactly the Federal Government is 
doing wrong as it relates to active forest management?
    Mr. Fite. It is a combination of factors, Senator, and one 
of those factors is just the agencies' hands are tied. They 
have one hand tied behind their back by a number of these 
repetitive processes and then the litigation loop, so they are 
not able to get projects together at the scale or the pace that 
they need to get them together.
    Senator Rounds. Ms. Crowder, very quickly, you testified 
that the permanent authorization of Good Neighbor Authority in 
the 2014 Farm Bill has been an important tool for getting work 
done on the ground. Can you explain how the Good Neighbor 
Authority, collaborating with the Forest Service and the Bureau 
of Land Management, has allowed you to better manage forests?
    Ms. Crowder. Absolutely. Thank you, Senator, Mr. Chairman. 
In the Black Hills of the national forests, we have seen, with 
State forestry and working with the Federal Government, as well 
as the National Wild Turkey Foundation, a Good Neighbor 
Authority project that actually does improve active management 
on the Black Hills. We have also seen some very particular 
projects on BLM lands in southcentral Wyoming, where we have 
been able to work with other entities, including the BLM and 
the Forest Service, through Good Neighbor Authority to do mule 
deer habitat improvement and to actually get some timber moved 
off of some of those areas before it is unusable.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much, Senator Rounds.
    Senator Gillibrand.
    Senator Gillibrand. Thank you so much, Mr. Chairman and Mr. 
Ranking Member, for holding this hearing.
    Mr. O'Mara, in your written testimony you mention that the 
U.S. Forest Service is restoring just under 5 million acres per 
year. The U.S. Forest Service also estimates that approximately 
65 million acres of Forest Service land is in need of some type 
of restoration. This seems to me to be an alarming gap between 
what needs to be done and what is actually being done to 
prevent wildfires.
    Yesterday, Secretary Perdue said, during his press 
availability, that what we need is a ``permanent funding fix'' 
and that a legislative effort is not necessarily needed if a 
funding fix is provided.
    Do you agree with Secretary Perdue that the major 
impediment to forest restoration efforts is primary lack of 
funding and resources? And what level of funding should 
Congress and the Administration be providing to carry out 
forest restoration projects?
    Mr. O'Mara. Thank you, Senator. I absolutely agree with 
Secretary Perdue. During my testimony earlier, I was focused on 
that. You can have all the management tools in the world, but 
if you don't have the resources to get products on the ground, 
they are all for naught. And I think right now you are spending 
$2 billion between the Forest Service and BLM and the Interior 
agencies on fighting these catastrophic fires, and that doesn't 
include the money that the Pentagon is spending and some State 
agencies are spending on top of it. So it is a massive number. 
And there has been good work by Senator Murkowski and Senator 
Udall and others in the appropriations process to try to put a 
band aid on the problem, but there is a great bipartisan bill 
that Senator Crapo has been working on with Senator Wyden and 
Senator Feinstein and so many others that I think is a perfect 
path to actually having the funding necessary.
    My belief is that we should have a dedicated separate fund 
for fires, rather than trying to put it into the FEMA universe, 
because if there is another hurricane that hits New York or 
Delaware or somewhere else, those funds are not predictable 
enough. So there should be a separate funding source. And there 
is a model that I think has broad bipartisan support, at least 
in this body; and if we can move that quickly, it solves a lot 
of these other problems. And I would love to complement it with 
some good management improvements also to give folks more tools 
to do better projects.
    But right now this restoration deficit, if you had all the 
money in the world, you would be able to restore a lot of that 
65 to 82 million acres in the coming years, instead of this 
maybe, if we are lucky, over the next 20 or 30 years at the 
current rate of funding.
    Senator Gillibrand. Well, I would like to work with you on 
those management ideas, because if we do get a vote on that 
bill in this Committee, I could offer an amendment to add that 
to the bill.
    In your written testimony, you raised several concerns with 
S. 1731, the Forest Management Improvement Act. Among the 
concerns you raise is the reduction in transparency and public 
involvement that would be the result of the bill. What would 
the consequences of limiting the options that are looked at as 
part of an environmental review or environmental assessment for 
all forest management practices, and how would such a 
limitation affect the ability of the public to provide 
meaningful input in the process?
    Mr. O'Mara. So, I am a big fan of collaborative processes, 
where you get folks on the ground together to come up with kind 
of solutions, and the 2014 Farm Bill actually had a great model 
for a lot of these individual exclusions to have a more 
collaborative process, and what they did there is they actually 
kept the environmental safeguards in place, but they really 
focused on empowering the collaboratives. And I think in this 
case there is a commonsense moderate middle between, and I 
think there is a bipartisan agreement where I think this 
overreaches on a few fronts. I think there is a more moderate 
place. None of us want to see projects that are collaborative 
blown up by the courts and things like that, but the answer 
isn't get rid of everything in the process and kind of throw 
the baby out with the bath water. So there is a middle ground 
that we would love to work with you and the Committee on 
finding, because we can get this done very well.
    Senator Gillibrand. A major reason why we subject major 
projects and activities to an environmental review process is 
to ensure that the voices of the public and other stakeholders 
are heard before decisions are made. This allows, in many 
instances, potential conflicts and unintended consequences to 
be identified and resolved before a project moves forward, 
rather than trying to fix it after the fact.
    For any of you, could you give us an example, either now or 
for the record, of how this process has worked well to resolve 
environmental issues before a project was implemented?
    You could start, Collin.
    Mr. O'Mara. Sure. I mean, I think there are incredible 
projects in places like Oregon and places like Montana that 
have had great collaborative processes that identified 
potential impacts to make sure you had the sportsmen interests 
for elk and big game kind of matched and making sure you don't 
have an adverse impact on things like raptors and owls and 
other kind of species. So having more voices at the table at 
the local level I think is the absolute best way to do this. 
And then what I would like to see is have those processes 
bolstered so they have greater weight in the courts. I mean, 
you shouldn't have somebody that wasn't part of the process be 
able to blow they up. We see that all too often.
    And I think this is where Senator Daines' bill and Senator 
Tester's bill, of making sure we are not having to go back to 
the entire plan, but just kind of focus on a specific piece and 
getting the best science, best collaboration at that level is a 
commonsense moderate middle that can actually make sure these 
kind of projects that are good and collaborative actually 
advance.
    Senator Gillibrand. Lawson.
    Mr. Fite. Thank you, Senator. Certainly, in Idaho and 
Montana there has been a lot of progress. I was involved in a 
project recently in southern Idaho where we got on the phone 
with conservation groups and the Forest Service and worked 
something out.
    Things are a little more difficult in Oregon. We have a 
collaborative project that is under litigation by a former 
member of a collaborative and a group that has participated in 
those processes, so I think that is a frustrating experience 
for folks when they go in that process and then there is still 
litigation.
    Senator Gillibrand. Chairman, I am out of time. Could 
Jessica answer, though?
    Senator Barrasso. Ms. Crowder.
    Ms. Crowder. I will be brief. Thank you, Senator.
    The collaboratives are important. We do have collaborative 
processes beginning in Wyoming. We are a little behind Oregon 
on some of those efforts. And I would submit to you that 
involving the people locally on the ground who live and work in 
these communities is of the utmost importance. However, I would 
also caution, and what we hear often from our constituents is 
we need immediate action; and they want to be involved in the 
process, but they want the process to lead to action on the 
ground. Thank you.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman, Ranking Member. I 
apologize for being late; I was at a Veterans hearing talking 
about veteran suicide, which is also very important. But, also, 
this is very important too, in a different way.
    Ms. Crowder, my State of Arkansas is very active in forest 
management on private, State, and some instances on Federal 
land. We have a thriving timber industry that provides good-
paying jobs for thousands of Arkansans. Further, Arkansas 
creates a net sequester of carbon at an impressive 16 million 
tons a year. It appears that investing in forest management is 
not only good for our environment, but it also boosts the U.S. 
economy.
    In your testimony and in answers to questions, it appears, 
Ms. Crowder, that you feel like that the legislation that we 
are discussing, well, enhanced forest management practices 
would help with the forest fire situation. Am I correct in 
that?
    Ms. Crowder. Yes, sir.
    Senator Boozman. Do you view increased forest management as 
a way for the United States to reduce its carbon footprint?
    Ms. Crowder. Yes, sir. Trees are important; they are carbon 
holders, carbon capture, so they are of the utmost importance 
to having healthy forests, to having healthy people, to having 
a healthy environment; and active management of those trees 
only increases those opportunities.
    Senator Boozman. Would you all comment, if you would?
    Mr. Fit. Well, I will comment very quickly. I met with one 
of our members, one of our sawmill members, and he said, you 
know what I do? I sequester carbon. By putting wood into 
products like the paneling in this room, we are sequestering 
carbon and we are storing it in our forests. And if we have 
these catastrophic wildfires, then we are releasing amounts of 
carbon that could be stored in those forests and kept there 
with good active management.
    Mr. O'Mara. Thank you, Senator, and thank you for the 
question. The estimates have ranged anywhere from 50 million 
metric tons of carbon go off every year from these wildfires to 
150 million. Just by way of comparison, all the refineries 
combined across the entire Country is about 220 million metric 
tons. So it is a lot. So, if we can improve management of our 
forests in a constructive way that reduces some of these 
catastrophic fires, the emission savings are significant; and, 
frankly, I would rather have it be in the trees, in the older 
trees and the larger trees, and actually have some local jobs 
as a result, also.
    Senator Boozman. Very good. Thank you.
    Mr. Fite, as you know, forest management is generally a 
bipartisan issue. Do you believe the legislation in front of us 
today effectively promotes a healthy environment, while getting 
rid of redundant processes that put our Country at greater risk 
of catastrophic wildfires? And I think it kind of goes to the 
comment that Ms. Crowder said a few minutes ago about the need, 
when you talk to individuals on the ground, the locals, getting 
something done now. But we have redundancies and we just have a 
paralysis of action.
    Mr. Fite. Absolutely, Senator. Forestry is a bipartisan 
space, and it is really encouraging that there are so many 
bills, particularly the litigation reform bill sponsored by 
Senators Daines and Tester also has bipartisan support in the 
House, and that is so encouraging because it is so important to 
our communities and to our ecosystems. We can do a lot of 
things that are win-win, where we are increasing the health of 
our forests, but we are also increasing the stability of our 
communities. And one of the great things about forestry is it 
provides jobs in rural areas that are blue collar and middle 
class; and there aren't as many jobs in this Country like that 
as there used to be, and that is a great thing for America.
    Senator Boozman. Very good.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Boozman.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    Collin, I will come back to you on the first question. 
Could you just take a minute and explain the relevance of the 
term categorical exclusion to this discussion? And then I am 
going to ask you some more specific questions.
    Mr. O'Mara. Sure. So the categorical exclusion is a way to 
have a project that is defined that basically avoids the need 
for the same level of environmental analysis that would be 
required under the National Environmental Protection Act, and I 
think they have been used very strategically in some places, in 
the Farm Bill. I used a couple examples of that. The 
administrative agencies also have some authority to have 
narrowly crafted ones. And it is a way to basically expedite 
the review of projects by not having the same level of 
scrutiny.
    Senator Carper. I understand that the Forest Service has 
authority, I think explicit authority, to use categorical 
exclusions up to, what is it, 3,000 acres now? And I understand 
they have used it not hundreds of times, but maybe 30, 40 
times, something like that. On average, I believe it is about 
roughly 1,000 acres at a time. And we have heard testimony 
today that they have not fully utilized this authority.
    Your testimony expresses strong concern about proposed new 
categorical exclusions up to what, I think 10,000 acres. Could 
you talk more about the unintended consequence of implementing 
such a broad exclusion, particularly before the Forest Service 
has fully implemented its existing authorities and before 
Congress has addressed the agency's funding needs?
    Mr. O'Mara. Sure. There is kind of two parts to the 
proposal. One is increasing the acreage and the second is kind 
of reducing the other kind of collaboration and the restoration 
intent that some of the other exclusions have. So what we would 
like to see is a more narrow focus on projects that actually 
have a restoration purpose, and I think we actually see that in 
the mule deer bill, the stage grouse bill that Senator Hatch 
and Senator Heinrich have been working on; and at the same time 
still encourage things like collaboration and having some level 
of protection.
    So we just don't think it is absolutely necessary, given 
that the vast majority of projects that the Forest Service is 
looking at using this particular exemption for right now are 
about 1,000 acres, as you mentioned, not even reaching the full 
3,000. So I think the deal that was the bipartisan agreement 
from the Farm Bill in 2014 was a pretty good one. I would love 
to have them have more resources and more tools to use that 
existing exemption, as opposed to going further for something 
they really don't need yet.
    Senator Carper. OK, good. Thanks. That was helpful.
    Ms. Crowder, somewhere in your testimony you mention that 
the State of Wyoming--have you always lived in the State of 
Wyoming?
    Ms. Crowder. I am sorry?
    Senator Carper. Have you always lived in the State of 
Wyoming?
    Ms. Crowder. I have been there about 13 years.
    Senator Carper. I was in Wyoming last weekend, Camden, 
Wyoming. It is a little town just south of Dover, Delaware. I 
go there a lot, and I always say to John Barrasso, our 
Chairman, and Mike Enzi, I was in Wyoming last weekend. It is a 
different one. I have been there a couple times. Lovely place. 
Lovely place. The real Wyoming, the really big one.
    But you mention in your testimony that your home State, 
your native State requested that the Forest Service uses 
authorities enacted in the Farm Bill we were talking about 
earlier, 2014 Farm Bill, but the agency has not yet done so. 
And I just want to ask you if you think this is in large part 
because the Forest Service's budget is inadequate and the 
agency has to spend more than half of its budget fighting 
fires.
    Ms. Crowder. Yes, sir. Fire borrowing is a real concern, 
and Governor Mead shares that concern and would like to see a 
fix to the fire borrowing issue. Essentially what it does is it 
takes away opportunities for us to get some active management 
done on the ground, as well as other projects, recreation 
projects, habitat enhancement projects, and others.
    In Wyoming, categorical exclusions related to insect and 
disease designation areas under the 2014 Farm Bill have not 
happened yet. That is not only because of the fire borrowing 
issue; it is because of a hesitancy to utilize the tool and 
also because there are many instances where a larger action is 
necessary. So chipping away 3,000 acres at a time on a forest 
like the Medicine Bow National Forest won't make the results 
happen as quickly and it won't be as useful as we would like to 
see.
    Senator Carper. OK, thanks.
    I have maybe one question, but for the next round?
    Senator Barrasso. Go ahead.
    Senator Carper. OK, thanks.
    This would be for all witnesses, but I am going to start 
off, if I could, Mr. Fite, with you.
    According to the Forest Service's NEPA handbook, the agency 
has, I don't know, 30, 40, maybe 35 categorical exclusions at 
its disposal. Do you believe these exclusions are being fully 
utilized? If not, why do you think they have not been fully 
utilized? And do you have specific recommendations on how they 
could be better utilized?
    Mr. Fite. Thank you, Senator. The categorical exclusions, 
many of them are being utilized, but they are for very small 
pieces of work, for 70-acre treatment or there is a categorical 
exclusion for facility maintenance. So many of these 
categorical exclusions don't really make a difference on the 
landscape.
    As far as barriers to using categorical exclusions, I will 
say I think Region I of the Forest Service has done a really 
good job using the Farm Bill authorities. They already have 15 
projects, just Montana, northern Idaho, North Dakota. 
Certainly, budget is an issue, but making sure that we can 
streamline authorities ensures that money will be spent wisely 
and it gets a good return, because the difference between a 
categorical exclusion and an EA versus an EIS can be 
significant time and significant taxpayer dollars.
    Senator Carper. All right.
    Collin.
    Mr. O'Mara. I do think that we have gotten better at this 
the last few cycles and we have seen some improvement. There is 
a really great idea that the Nation Conservancy and the 
National Wildlife Federation and Senator Cantwell and Senator 
Murkowski have been talking about, kind of like these landscape 
scale plans where you basically try to do habitat restoration 
at scale and then use it through an EA process as a way to kind 
of expedite the review, but as opposed to every individual 
small project kind of looking at scale.
    So I think what we would argue is that we could use the EA 
process much more efficiently and not need the full-blown EIS, 
kind of NEPA analysis, and that is a better solution, from our 
point of view, than having a bunch more categorical exclusions 
that may or may not be used. So I think there is a better 
mousetrap to get the same exact result on the ground in a way 
that can be much more bipartisan.
    Senator Carper. OK, good.
    And Ms. Crowder.
    Ms. Crowder. Yes. Categorical exclusions, I agree with 
these two gentlemen, do not provide the needs that we have in 
Wyoming, in Region II and Region IV of the Forest Service, 
across several of our forests that are just devastated, and 
that is my concern. I am sorry, categorical exclusions do 
provide that opportunity. So when we don't see those 
categorical exclusions used because they don't provide the bang 
for your buck that is needed in some of these areas that are 
truly devastated, that is where the concerns come in.
    We do have two projects that are very close to 3,000 acres 
that are starting to move forward under the insect and disease 
designation areas permitted in the Farm Bill of 2014; however, 
it is slow. It has been very slow. And we would like to see 
that use be improved and expanded. And I think that 
streamlining NEPA as a whole for environmental assessments and 
environmental impact statements is also necessary and a very 
good tool.
    Senator Carper. All right.
    The last thing I would ask is sometimes when we have issues 
for which there is not yet unanimity, we look to a panel like 
you. You don't see all these issues entirely the same, but 
there is a lot of consensus. Just a closing word or two, some 
counsel for us, as we try to move forward with these bills, 
just to keep in mind. Anything, any last thought that you have, 
we would appreciate it.
    You want to go first, Ms. Crowder.
    Ms. Crowder. Thank you, Senator, Mr. Chairman. I think 
that, in closing, for Wyoming and the rest of the Country, what 
is important here is immediate action, an opportunity to 
evaluate what we really want our forests to look like, how we 
really want our forests to function. Do we want them to provide 
ecosystem benefits and jobs for our economy? Do we want them to 
be a great place to recreate and for visitors to enjoy, for 
wildlife? Yes. So we need to evaluate what those goals actually 
are for our forests and what are the steps to actually get 
there.
    In Wyoming, we are concerned with management being too 
small, at two small a scale to get to the level of management 
that we would like to see, and to see the healthy forests that 
we really do want and that are very important to our citizens.
    So thank you for the opportunity.
    Senator Carper. No, we are grateful to you. Thank you.
    Mr. Fite.
    Mr. Fite. Thank you, Senator. In closing, some words to go 
on, we have a great opportunity with active management to 
create healthy forests that support our communities and support 
many of the other uses of the national forests, which are great 
multiple-use lands for timber production, recreation, and all 
sorts of other uses. What we need, though, is a comprehensive 
approach, because merely fixing a budget approach without 
giving the Forest Service and BLM more management authorities 
isn't going to get us to where we need to be with an actively 
managed healthy landscape, because if we just send money at the 
problem--and I agree the wildfire funding problem needs to be 
fixed, and we in industry support fixing that, but without some 
management reforms, we are not going to get the management 
outcomes that we need on our national forests. And we in the 
forest product industry, we stand ready to partner across the 
aisle, across the spectrum to create solutions and support 
approaches that will create good results on the ground.
    Senator Carper. All right. Thanks.
    Mr. Fite. Thank you for the opportunity.
    Senator Carper. Collin, last word?
    Mr. O'Mara. Thank you, Senator. There is an opportunity of 
a big bipartisan agreement here if we focus on the things that 
are truly bipartisan, and I think the fire funding crisis fix I 
think is bipartisan in the Senate. I think we have gotten 
really close a few times. I think the bills you have before 
you, with Senator Tester and Senator Daines, as well as Senator 
Thune and Senator Hatch, I think those are bipartisan. I think 
that with some more thought, I think there are some pieces of 
the Thune bill, in Senator Thune's bill that could be 
bipartisan. But speed is of the essence.
    We have been stranded. We have lost kind of goal line 
stands several times on this issue in the last several years, 
so I think we can't let perfect be immediately good and I think 
we have to be rational on all sides, and frankly it comes back 
to your three Cs, right? Collaboration and compromise. And we 
could get this done by the end of the year. I mean, this could 
be one of the biggest national resource bills that has gone 
through this body in years. But I think everyone is going to 
have to be legitimately compromising to get there.
    Managers absolutely need more tools and managers absolutely 
need more resources, and if we focus on outcomes like wildlife 
habitat and forest resilience and watershed health and local 
recreation and local jobs, there is a solution there; and we 
would love to work with both of you to make that happen.
    Senator Carper. Great. Thank you so much. Thank you. Great 
to see you. Thank you.
    Senator Barrasso. Thank you, Senator Carper.
    I ask unanimous consent to include a record letter, number 
of different articles on wildfires into the record.
    Senator Carper. I object.
    Senator Barrasso. Without objection.
    Senator Carper. I don't object.
    Senator Barrasso. Objection is overruled.
    [Laughter.]
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
 
     
    Senator Barrasso. Mr. O'Mara, if I could, just following up 
on what you were talking about. You mentioned catastrophic 
wildfires, tens of billions of dollars in damages, local 
communities, the economies. So many of the populations depend 
on the great outdoors to sustain the economies. We have had 
these catastrophic fires. They affect hunting, fishing, hiking, 
all of the activities. Can you talk a little bit about just the 
impact on the outdoor economies that is impacted?
    Mr. O'Mara. Yes. And I think we haven't done a good job 
quantifying this, but this year, using Senator Daines' and 
Senator Tester's hometown, all the folks who tried to go to 
Glacier that couldn't visit this year, that is a massive loss 
of impact on Kalispell and Whitefish and all those communities 
up there. I was in Jackson just a few weeks ago and there was 
still haze in the air, still affecting local kids and local 
schools.
    So you are talking about tens of billions of dollars of 
impact on the ground on the physical assets. You are probably 
talking, you know, 30, 40, $50 billion of economic impact 
further upstream. So a fire funding fix that is a fraction of 
that cost, plus some management reforms that are basically just 
better policy, is a small price to pay for having this massive 
impact on the economy, rural jobs and outdoor economy jobs.
    Senator Barrasso. I want to go to Mr. Fite next, but I am 
going to let you finish it off, Ms. Crowder, and you can talk 
about that, even things like the eclipse and the impact on 
people coming to Wyoming, and whether they are going to have a 
good vision of the Great American Eclipse.
    Mr. Fite, let me just get to you in terms of wildlife and 
the specifics there to better protect species. This Committee 
has examined how to improve wildlife conservation. We have done 
that over the last several months; we have had hearings. Given 
the importance of conservation to this Committee, can you talk 
a little bit about your thoughts as to the devastating impact 
wildfires have on our Country's wildlife and how you believe 
these bills addressed will really help protecting wildlife?
    Mr. Fite. Yes, Senator, absolutely. We have seen fires in 
the West recently that have had dramatic and horrific impacts 
on key wildlife habitat. One example was a fire complex called 
Westside on the Klamath National Forest in northern California. 
It destroyed 20,000 acres of very high quality northern spotted 
owl habitat. Just destroyed it. It looked like a bomb had gone 
off, basically. And the Forest Service, in its evaluations of 
the northwest forest plan 20 years on, it noted that wildfire 
impacts to key wildlife habitat are 10 times that of timber 
harvests or really any other impact. Wildfire is really the No. 
1 threat that a lot of these sensitive, endangered, and 
threatened species are facing, particularly forest-dependent 
species and particularly old forest-dependent species. If we 
are not managing areas that are designated for timber 
production or more of the front country, if we are not managing 
that, then areas that are set aside as reserves are going to be 
vulnerable from fire.
    So we are not looking at management as a solution. It 
protects not only the active working forests, but it protects 
areas that we have set aside, such as Glacier. And the 
solutions that are in front of this Committee can really have a 
positive impact on those conservation efforts. Going back to 
the Cottonwood bill, so many of those projects have significant 
wildlife benefits like fish passage improvements and the like.
    So what the opportunity here is a great win-win of 
improving wildlife conservation and supporting our local 
economies, and also preventing more catastrophic wildfire in 
the future.
    Senator Barrasso. Ms. Crowder.
    Ms. Crowder. Senator, tourism is Wyoming's No. 3 industry. 
We have several of these reserve forests and wilderness areas 
and national parks that people enjoy visiting. We have several 
places throughout State that people love to go fish, they love 
to go hike, they love to get on the Snake River and raft. What 
we see from wildfires are concerns from our tourists, as well 
as our citizens, that they won't be able to do those things 
that they really want to do.
    We often see letters from people who have planned their 
once-in-a-lifetime trip to Yellowstone, Grand Teton National 
Park, the Bridger-Teton National Forest, and they find out that 
there are wildfires and they don't know if they should come to 
Wyoming or not; they don't know if they should cancel their 
trip. They are worried about their health; they are worried 
about their ability to do the activities that they have planned 
a lifetime for. And that is concerning. And we saw that play 
out with the Great American Eclipse. And we are not the only 
State that had these concerns.
    The potential for people to come to Wyoming to watch the 
eclipse in its totality, what an amazing experience, really; 
and people planned for years for that. And what we saw was a 
concern and a real concern that wildfires would put a lot of 
smoke in the air and really block that view, and that would 
have a major impact on our tourism industry not just for that 
day, but in the weeks surrounding it. And, luckily, that ended 
up not being the case, but there were fire bans throughout the 
State to make sure that would not be the case.
    It has also come to light in places like Jackson or Casper, 
where folks are concerned that wildfires really will ruin their 
industry, people who live and work in those places who maybe 
run a fishing business and a guide business or a rafting 
business. And those folks have concerns that they won't be able 
to continue their livelihood in these areas if wildfires 
continue to be an issue and they stop people from coming to 
these great places that we love across our Nation.
    Thank you.
    Senator Barrasso. Well, I appreciate all of you being here. 
I thought it was excellent testimony; excellent give and take. 
We had about 10 members who had the chance to be here to ask 
questions. Some members may want to submit written questions, 
as well, so I would hope that you would respond to those 
quickly because the record will stay open for 2 weeks.
    I want to thank each and every one of you for being here 
for this very important issue.
    This hearing is adjourned. Thank you.
    [Whereupon, at 11:45 a.m. the committee was adjourned.]

                                 [all]
                                 
                                 
                                 
</pre></body></html>
